APPENDIX

I

NOT RECOMMENDED FOR PUBLICATION
No. 20-1268
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOELLEN MARY CROSSETT,
Plaintiff-Appellant,
v.
EMMET COUNTY, MI, et al.,
Defendants-Appellees.

FILED

Nov 12, 2020
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)

ORDER
Before: GUY, KETHLEDGE, and NALBANDIAN, Circuit Judges.
JoEllen Mary Crossett, a pro se Michigan resident, appeals the district court’s order
>

granting summary judgment in favor of the defendants in her civil rights action. This case has
been referred to a panel of the court that, upon examination, unanimously agrees that oral argument
is not needed. See Fed. R. App. P. 34(a).
In May 2018, Crossett filed her complaint against Emmet County, MI; Sheriff Peter A
Wallin; Sheriff Deputies Cody Wheat and Fuller Cowell; Sheriff Deputy/Detective Wade Leist;
Prosecutor James R. Linderman; Assistant Prosecutor Stuart Fenton; and Assistant Prosecutor
Michael H. Schuitema. Crossett’s complaint begins with events in March and April 2015, when
she began to raise objections to various Emmet County officials concerning marijuana-related
searches and arrests of Native Americans being conducted by local police and the Straits Area
Narcotics Enforcement Team (SANE).

Crossett’s objections included numerous vociferous

voicemails to Sheriff Wallin, including one in which she expressed that if his “cock-sucking police
fucks” entered her property, they would “be in fucking peril.” A misdemeanor arrest warrant was

m

a

t^

No. 20-1268
-2-

therefore issued by a magistrate judge on May 19,2015, charging Crossett with the malicious use
of a telecommunications device, in violation of Michigan Compiled Laws § 750.540e. Sheriff
Deputies Wheat and Cowell therefore arrested her on May 23, 2015; she claimed that they
subjected her to various forms of excessive force and denied her medical treatment. She was later
charged and ultimately convicted of three counts of resisting arrest and obstruction connected to
this arrest.
On January 13, 2016, Crossett was arrested by the trial court’s bailiff and briefly detained
after she was charged with additional counts of malicious use of a telecommunications device-—
this time for \oicemails that she sent to the chairperson of the Little Traverse Bay Band of Odawa
Indians. During her defense against the original resisting and obstruction charges, Crossett’s
attorney indicated that she would plead not guilty by reason of insanity, and the trial judge ordered
her to participate in a competency evaluation. She disagreed with counsel’s strategy and refused
to attend the evaluation, however, and the trial judge issued a bench warrant that resulted in her
arrest on April 28, 2016. Crossett alleged that after she was convicted, she suffered various
deprivations during her approximately six months of incarceration, including that she was denied
the use of oregano oil and a non-soy diet and was subjected to a strip search when one of her
\.

cellmates was caught passing drugs to another inmate.
Based on these allegations, Crossett claimed that the defendants: (1) violated her First
Amendment right to free speech; (2) retaliated against her for speaking out; (3) unlawfully arrested
her on May 23, 2015, January 13, 2016, and April 28, 2016; (4) unlawfully imprisoned her

;;p'

following her arrests and convictions; (5) maliciously prosecuted her; (6) used excessive force
against her; (7) failed to intervene; (8) were deliberately indifferent to her medical needs;
(9) conspired to force her to plead guilty; (10) illegally searched her; (11) violated her due process
rights; and (12) intentionally inflicted emotional damage upon her.
The defendants moved for summary judgment. A magistrate judge recommended that
summary judgment should be granted in favor of the defendants and that the complaint should be
dismissed. Over Crossett’s objections, the district court adopted the report and recommendation

No. 20-1268
-3-

and granted summary judgment In favor of the defendants. On appeal, Crossett disputes the district
court’s grant of summary judgment and reasserts her claims.
We review a district court’s grant of summary judgment de novo. Huckaby v. Priest, 636
F.3d 211, 216 (6th Cir. 2011). Summary judgment is appropriate when “the movant shows that
there is no genuine dispute as to any material fact and the movant is-entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). In resolving summary judgment motions, courts view the
evidence in the light most favorable to the non-moving party. See Matsushita Elec. Indus. Co,. v.
\

>

Zenith Radio Corp., 475 U.S. 574, 587-88 (1986). To state a claim under § 1983, a plaintiff must
establish the deprivation of a right secured by the Constitution or laws of the United States caused
by a person acting under the color of state law. See Sigley v. City ofParma Heights, 437 F.3d 527,
533 (6th Cir. 2006) (citing Westv. Atkins, 487 U.S. 42,48 (1988)). Although mentioning qualified
immunity, the defendants focus their arguments on the lack of a constitutional violation.
Emmet County
Crossett first argues that Emmet County was not entitled to immunity as a municipality
because it had a custom and policy of allowing law enforcement to conduct drug raids on citizens’
horhes and that they failed to adequately train law enforcement officers. “A municipality may not
be held liable under § 1983 on a respondeat superior theory—in other words, ‘solely because it
employs a tortfeasor.’” D’Ambrosio v. Marino, 747 F.3d 378, 388-89 (6th Cir. 2014) (emphasis
in original) (quoting Monell v. Dep’t ofSoc. Servs., 436 U.S! 658, 691 (1978)). Instead, a plaintiff
must show that the municipality had a “policy or custom” that caused the violation of his rights.
Monell, 436 U.S. at 694. A plaintiff can demonstrate that the municipality had such a policy or
custom by proving: “(1) the existence of an illegal official policy or legislative-enactment; (2) that
an official with final decision making authority ratified illegal actions; (3) the existence of a policy
of inadequate training or supervision; or (4) the existence of a custom of tolerance or acquiescence
of federal rights violations.” Burgess v. Fischer, 735 F.3d 462, 478 (6th Cir. 2013).
In order to show that Emmett County had a policy of inadequate training or supervision,
Crossett must show “(1) that a training program is inadequate to the tasks that the officers must

3*-

No. 20-1268
-4-

perform; (2) that the inadequacy is the result of the [county’s] deliberate indifference; and (3) that
the inadequacy is closely related to or actually caused the plaintiffs injury.” Brown v. Chapman,
814 F.3d 447, 463 (6th Cir. 2016) (quoting Plinton v Cty. ofSummit, 540 F.3d 459, 464 (6th Cir.
2008)). Deliberate indifference is shown if the county failed to provide adequate training in light
of foreseeable consequences that could result from the lack of instruction, or if the county failed
to act in response to repeated complaints of constitutional violations by its employees. See id.
The district court found that Crossett had not presented any evidence of a custom or policy,
or an inadequate police training program, that caused her alleged injuries

or would satisfy the
above deliberate-indifference standard. As discussed further below, the videos from the bodycams
worn by Sheriff Deputies Wheat and Cowell do not
support her alleged constitutional injuries
during her May 23, 2015, arrest. See City ofLos Angeles v. Heller, 475 U.S.
796, 799 (1986) (per
curiam). Moreover, Crossett directs her argument for a policy-or-custom claim at drug raids being
;

conducted by law enforcement against other citizens. She did

not, however, allege that her
constitutional rights were violated by any such drug raid. That her disagreement with these drug
raids was her motivation for leaving the threatening voicemails that led to her arrest does not
change this analysis. Crossett failed to support a policy-or-custom claim against Emmet County.
Prosecutor Linderman and Assistant Prosecutors Fenton and Schuitema
Crossett next argues that Prosecutor Linderman and Assistant Prosecutors Fenton
and
Schuitema were not entitled to absolute prosecutorial immunity because they chose to pursue arrest
warrants without probable cause. She claims that these acts were outside the scope of their
prosecutorial duties and violated her constitutional rights because they asserted in court that she
was insane. Prosecutors have absolute immunity from liability under § 1983 when engaging in
activities “intimately associated with the j udicial phase of the criminal p

rocess,” such as initiating

a prosecution or seeking an arrest warrant. Imhler v. Pachtman, 424 U.S. 409, 430-31 (1976); see
Howell v. Sanders, 668 F.3d 344, 349-50 (6th Cir. 2012). “[Immunity allows a prosecutor to
exercise his independent judgment in ‘ deciding which suits to bring and in conducting them in
court’ based on his duty to the public rather than on a lear of potential liability in a suit for

If ^

No. 20-1268
-5damages.” Grant v. Hollenbach, 870 F.2d 1135, 1137 (6th Cir. 1989) (quoting Imbler, 424 U.S.
at 424-25). The motives of a prosecutor in initiating prosecution are irrelevant for purposes of
absolute immunity. See Eldridge v. Gibson, 332 F.3d 1019, 1021 (6th Cir. 2003).
Crossett has not shown that the prosecutors’ decisions to pursue arrest warrants, or to seek
a mental health evaluation after defense counsel asserted an insanity defense, were outside the
scope of their prosecutorial duties. She also does not show that the prosecutors relinquished their
roles as advocates, and her claims that her arrests were without probable cause do not change this.
See Kalina v. Fletcher, 522 U.S. 118, 131 (1997); Howell, 668 F.3d at 350-51 (holding that
prosecutorial immunity does not hinge on whether the underlying warrant was supported by
probably cause). Even if these actions were done out of malice, or because the prosecutors thought
that Crossett was insane as she claims they did, that would not deprive them of absolute immunity.
Accordingly, the prosecutorial defendants were properly granted summary judgment.
Claims Against the Remaining Defendants
As an initial matter, the remaining defendants participated only in Crossett’s arrest and
subsequent detention on May 23, 2015. Crossett’s arrest and subsequent detention on January 13,
2016, for her threats to tribal leaders were carried out by the trial court bailiff at the order of the
trial judge, and Crossett did not present any evidence that any of the remaining defendants were
involved in her April 28, 2016, arrest find detention for failing to attend the court-ordered mental
health evaluation. Accordingly, any claims connected to her January 13,2016, and April 28,2016,
arrests and subsequent detentions were properly dismissed.
May 23,2015, False Arrest, False Imprisonment, and Malicious Prosecution Claims
Concerning Crossett’s claim of false arrest and imprisonment on May 23, 2015, she failed
to show that the arrest was without probable cause. To prevail on either a false-arrest or a falseimprisonment claim, a plaintiff must show that she was arrested without probable cause. See
Voyticky v. Vill. ofTimberlake, 412 F.3d 669, 677 (6th Cir. 2005); see also Wallace v. Kato, 549
U.S. 384, 388-89 (2007). Probable cause exists when the “facts and circumstances [are] sufficient
to lead an ordinarily prudent person to believe the accused was guilty of the crime charged.” Webb

5^

No. 20-1268
-6v. United States, 789 F.3d 647, 660 (6th Cir. 2015) (quoting MacDermid v. Discover Fin. Servs.,
342 F. App’x 138, 146 (6th Cir. 2009)). The district court properly concluded that Crossett’s
Fourteenth Amendment due process claim concerning her May 23,2015, arrest and detention was
subsumed by her Fourth Amendment claim. See Albright v. Oliver, 510 U.S. 266,273 (1994).
Crossett was arrested; pursuant to a misdemeanor warrant requested by the prosecutor and
approved by a magistrate judge. The warrant charged Crossett with the malicious use of “a service
provided by a telecommunications service provider, with intent to terrorize, frighten, intimidate,
threaten, harass, molest, annoy, or disturb the peace and quiet” “by threatening physical harm or
damage to any person or property” in violation of Michigan Compiled Laws § 750.540e, The
messages Crossett left on Sheriff Wallin’s voicemail, particularly the message left on May 1,2015,
threatening to put into “peril” any police officers who came on her property, provide the necessary
probable cause to support Crossett’s arrest. That she was not ultimately convicted of the charge
makes no difference. Her subsequent detention for less than two days did not violate the Fourth
Amendment. See Cty. of Riverside v. McLaughlin, 500 U.S. 44, 56 (1991). The presence of
probable cause also defeats her claim of malicious prosecution. See Johnson v. Moseley, 790 F.3d
649, 654 (6th Cir. 2015).
Crossett likewise complained about her approximately six-month detention after she was
convicted of resisting, obstructing, and/or assaulting a police officer in relation to her May 23,
2015, arrest. The bodycam videos of the May 23, 2015, arrest show her resisting—including
spitting into the face of one of the Sheriff Deputies—and establish that probable cause existed to
arrest her on those charges. Moreover, her subsequent convictions have not been invalidated, and
thus any claim calling those convictions into question is barred. See Heckv. Humphrey, 512 U.S.
477,486-87 (1994). Her false-arrest, false-imprisonment, and malicious-prosecution claims were
therefore properly dismissed.
Excessive Force and Failure to Intervene
Crossett next claimed that during the May 23,2015, arrest Sheriff Deputy Wheat employed
excessive force against her and that Sheriff Deputy Cowell failed to intervene to protect her.

No. 20-1268
-7
Claims of excessive force during an arrest are analyzed under the Fourth Amendment’s “objective
reasonableness” standard. Graham v. Connor, 490 U.S. 386, 388 (1989). This inquiry “requires
a careful balancing of ‘the nature and quality of the intrusion on the individual’s Fourth
Amendment interests’ against the countervailing governmental interests at stake.” Id. at 396
(quoting Tennessee v. Garner, 471 U.S. 1, 8 (1985)). The videos of the arrest provided by the
deputies’ body cameras clearly refute Crossett’s claims of excessive force. The force used was no
more than necessary to restrain Crossett, and her claims that Wheat used a “leg-sweep” to throw
her to the ground and that he maliciously hit her in the back of the head while she was on the
ground is not supported by the video evidence. A spit-mask was placed over Crossett’s head after
she spit in the direction of Wheat’s face. That mask was immediately adjusted and then removed
when Crossett complained of breathing problems. Crossett provided no evidence to support her
claims of excessive force, and summary judgment was properly granted in favor of the defendants.
Deliberate Indifference
Crossett argued that Sheriff Deputies Wheat and Cowell were deliberately indifferent to
her serious medical needs during the May 23, 2015, arrest. See Brown, 814 F.3d at 465 (applying
the Eighth Amendment standard to pretrial detainees). A claim for the denial of adequate medical
care has an objective and a subjective component. Johnson v. Karnes, 398 F.3d 868, 874 (6th Cir.
2005). To satisfy the objective component, the plaintiff must allege a sufficiently serious medical
, need. Id. The subjective component is satisfied if the plaintiff alleges facts which “show that the
official being sued subjectively perceived facts from which to infer substantial risk to the prisoner,
that he did in fact draw the inference, and that he then disregarded that risk.” Id. (quoting Comstock
v. McCrary, 273 F.3d 693, 703 (6th Cir. 2001)).
In this case, when Crossett began to complain about her heart condition and trouble
breathing, Wheat and Cowell immediately asked her if she wanted an ambulance, and Cowell
called for one.

Wheat and Cowell cancelled the ambulance when Crossett’s yelling and

combativeness showed she was no longer in physical distress. When Crossett re-asserted her
desire for an ambulance, it was re-called. The officers then drove to meet the ambulance away

No. 20-1268
-8from Crossett’s home. This evidence does not show that either defendant inferred a substantial
risk to Crossett’s health and then disregarded that risk. Accordingly, this claim was properly
dismissed.
Crossett also argued that Sheriff Wallin was deliberately indifferent to her serious medical
needs during her approximately six-month period of incarceration because he did not allow her to
bring oregano oil into the jail to treat her various health conditions and did not provide her with a
no-soy diet. Her allegations do not show that she was refused treatment for her various ailments,
however, but instead that the jail refused to allow her to bring in outside substances to treat herself.
Neither did she present any evidence that her alleged conditions were sufficiently serious.
Moreover, Crossett provided no evidence that Sheriff Wallin was involved in the decision to deny
her permission to bring oregano oil into the jail or that he influenced her diet other than her
allegation that he was in charge of the jail. Summary judgment was properly granted on this claim.
Illegal Search
Crossett asserted that she was illegally strip-searched while incarcerated at the Emmet
County Jail. The court considers three factors when evaluating the constitutionality of a strip
search: (1) “the scope, manner, and location of the search”; (2) “the need for the search, giving
due deference to the correctional officer’s exercise of her discretionary functions”; and
(3) “whether the search was reasonably related to legitimate penological interests by weighing the
need against the invasion.” Sumpter v. Wayne Cty., 868 F.3d 473, 482 (6th Cir. 2017) (quoting
Stoudemire v. Mich. Dep 7 of Corrs., 705 F.3d 560, 572 (6th Cir. 2013)).
Crossett acknowledged that she was sitting with another inmate who had smuggled illegal
drugs into the jail and that she and a few other inmates were strip-searched to determine if they
had hidden any of those drugs on their persons. She does not demonstrate that these circumstances
did not justify a strip-search to ensure that she did not also possess illegal drugs. Moreover,
Crossett has not shown that Sheriff Wallin had any personal involvement in the decision to conduct
the strip search. This claim was correctly dismissed.

$ ^

No. 20-1268
-9First Amendment Claims
Crossett claimed that her arrests and incarceration prevented her from speaking out on
issues of public concern, i.e., her complaints about drug raids being conducted by the police in her
neighborhood. She claimed that the defendants retaliated against her in order to silence her speech.
To prevail on a First Amendment retaliation claim, “a plaintiff must show that (1) [s]he engaged
in protected conduct; (2) the defendant took an adverse action against h[er] ‘that would deter a
person of ordinary firmness from continuing to engage in that conduct’; and (3) that the adverse
action was taken (at least in part) because of the protected conduct.” Thomas v. Eby, 481 F.3d
434, 440 (6th Cir. 2007) (quoting Thaddeus-X v. Blatter, 175 F.3d 378, 394 (6th Gir. 1999) (en
banc)). Crossett fails to establish the necessary causal connection, however, because her May 23,
2015, arrest—the only arrest attributable to the remaining defendants—was caused by her
threatening voicemails and her actions during the arrest, which are not protected conduct. See
Virginia v. Black, 538 U.S. 343, 359-60 (2003) (noting that the states can ban threats of violence
under the First Amendment). “Because there was probable cause to arrest [Crossett], [her]
retaliatory arrest claim fails as a matter of law.” Nieves v. Bartlett, 139 S. Ct. 1715,1723-25,1728
(2019) (rejecting subjective approach and adopting the requirement that a plaintiff must plead and
prove the absence of probable cause to sustain a First Amendment retaliatory arrest claim).
Accordingly, summary judgment was correctly granted to the defendants on Crossett’s First
Amendment claims.
Infliction of Emotional Damage
Crossett claimed the infliction of emotional damage due to the defendants’ actions. She
does not dispute the district court’s decision to evaluate the claim under Michigan law. To prevail
on a claim for the intentional infliction of emotional distress, Crossett must establish: (1) extreme
and outrageous conduct by the defendant; (2) the defendant’s intent or recklessness; (3) causation;
and (4) her own severe emotional distress. See Dailey v. Dykema Gossett PLLC, 788 N.W.2d 679,
694 (Mich. 2010). Extreme and outrageous conduct requires that the defendant’s conduct must
“go beyond all possible bounds of decency” and “be regarded as atrocious and utterly intolerable

i*-

No. 20-1268
-10in a civilized community.” Id. Crossett has failed to show that there was anything unconstitutional
or illegal—as discussed above—let alone extreme and outrageous, about the defendants’ conduct.
Accordingly, summary judgment was properly granted on this claim.
Conspiracy
Crossett alleged that the defendants engaged in a conspiracy to violate her rights and coerce
her into pleading guilty, in violation of 18 U.S.C. § 371. However, § 371 is a criminal statute that
does not create a private right of action. See, e.g., Cent. Bank of Denver, N.A. v. First Interstate
Bank of Denver, 511 U.S. 164, 190 (1994). To the extent that Crossett intended to bring a civil
conspiracy claim, she has not shown an underlying constitutional violation on which to base her
conspiracy claim, nor has she provided evidence of an agreement between co-conspirators beyond
her conclusory assertions. See Bickerstaff v. Lucarelli, 830 F.3d 388, 400 (6th Cir. 2016).
Summary judgment on this claim was proper.
Crossett argues for the first time in her reply brief that Michigan officials lacked
jurisdiction to arrest and prosecute her because she is an Indian on Indian lands. But we will not
consider arguments that are first raised in a reply brief because the defendants did not have a
chance to respond. See United States v. Johnson, 186 F. App’x 560, 564 (6th Cir. 2006); Aetna
Cas. & Stir. Co. v. Leahey Const. Co., 219 F.3d 519, 545 (6th Cir. 2000).
Accordingly, we AFFIRM the district court’s judgment.
ENTERED BY ORDER OF THE COURT
/

Deborah S. Hunt, Clerk

[£>

A

I

Case l:18-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.800 Page 1 of 10

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOELLEN MARY CROSSETT,
Plaintiff,

Case No. l:18-cv-543

v.

HON. JANET T. NEFF

EMMET, COUNTY OF, et al.,
Defendants.
/

OPINION AND ORDER
Plaintiff; proceeding pro se, initiated this action under 42 U.S.C. § 1983 against Emmet
County and Emmet County officials, alleging twenty-four separate claims in a 267-paragraph
complaint. Plaintiff alleges violations of her rights under the First, Fourth, and Fourteenth
Amendments, “[ajs'a direct and proximate result of the unlawful policies and acts of the
defendants” (Compl., ECF No. 1 at PageID.106). Defendants filed a motion for summary
judgment.

The matter was referred to the Magistrate Judge, who issued a Report and

Recommendation (R&R), recommending Defendants’ motion be granted and this case terminated.
The matter is presently before the Court on Plaintiffs objections to the Report and
Recommendation. In accordance with 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b)(3), the
Court has performed de novo consideration of those portions of the Report and Recommendation
to which objections have been made. The Court denies the objections and issues this Opinion and
Order.

WQ

It*-

Case 1:l$-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.801 Page 2 of 10

Objections to Background
As a threshold matter, Plaintiff begins by objecting to certain non-material facts in the
“Background'’ section of the Report and Recommendation. Plaintiff argues that the Magistrate
Judge erred by “not resolv[ing] any of the issues of fact in Ms. Crosset’s favor” nor “crediting]
contradictory evidence” (Obj., ECF No. 48 at PageID.757). Plaintiff disagrees with how mildly
the Magistrate Judge characterized Plaintiffs action of pleading guilty {id.). Plaintiff disagrees
with the Magistrate Judge’s use of the phrase “refused to attend the scheduled competency
hearings” {id. at PagelD.758). Plaintiff disagrees with the Magistrate Judge’s characterization of
taking “prescribed” medication as a need to “treat herself’ {id.). All four disagreements with the
background section fail to demonstrate any factual or legal error in the Magistrate Judge’s analysis
or conclusion. This objection is therefore denied.
L

Defendant Emmet County
Turning next to the section of the Report and Recommendation addressing Plaintiffs

claims against Emmet County, Plaintiff argues the Magistrate Judge mischaracterized Plaintiff 5
Complaint as a mere contention (Obj., ECF No. 48 at PageID.758). Plaintiff states that she
“contends more than just a ‘failure to properly train Defendants’ concerning the violation of her
rights by Emmet County,” and Plaintiff emphasizes that she “also sustained injuries because of
‘official municipal policies’ of Emmet County” {id.). Plaintiff does not demonstrate how the
1

alleged mischaracterization reveals any error in the Magistrate Judge’s analysis.
Plaintiff also objects to the Magistrate Judge’s finding that Plaintiff did not “establish she
was injured as a result of [Defendants’] customs and policies” {id. at PageID.759). Again,
Plaintiffs mere disagreement with the Magistrate Judge’s conclusion fails to identify any error in
the Magistrate Judge’s analysis.

2

ia

Case l:18-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.802 Page 3 of 10

Plaintiff also argues that the Magistrate Judge erred when finding that Plaintiff did not
present or identify any evidence that satisfied the deliberate-indifference standard (id.). Plaintiff
alleges that the Magistrate Judge omitted Plaintiffs references to evidence that allegedly proved
the County’s liability '(id. at PageID.758).

Plaintiffs argument lacks merit.

There is no

requirement that a report and recommendation delineate each exhibit a magistrate judge reviews.
Further, Plaintiff does not specify any exhibits that the Magistrate Judge overlooked, nor has
Plaintiff identified any consequent error within the Magistrate Judge’s analysis.
In sum Plaintiffs objections regarding the Magistrate Judge’s recommendation as to
Defendant Emmet County are denied.
II.

Defendants Linderman, Fenton, and Schuitema
In regards to Defendants Linderman, Fenton, and Schuitema, Plaintiff argues that the

Magistrate Judge incorrectly concluded they enjoy absolute immunity (Obj., ECF No. 48 at
PageID.760). Plaintiff asserts that Defendants “only ‘enjoy’ absolute immunity when they uphold
the law, not break it” (id.). Plaintiffs assertion is a mischaracterization of the Magistrate Judge’s
conclusion. The Magistrate Judge stated that ‘“state prosecutors are absolutely immune from civil
liability when acting within the scope of their prosecutorial duties,”’ which includes Defendants’
decision to initiate a prosecution ...’” (R&R, ECF No. 47 at PageID.731). The Magistrate Judge
concluded that Plaintiff did not provide sufficient evidence to support her allegations (id.)
Plaintiff s objection is properly denied.

!

Next, Plaintiff challenges the Magistrate Judge’s statement that “[Pjlaintiff has presented
absolutely no evidence to support such assertions” that “Defendants made false statements or
otherwise acted improperly as a part of the decision to issue the warrants in question” (Obj., ECF
No. 48 at PageID.761). Plaintiff asserts she “sent plenty of evidence” (id.). However, Plaintiff

3
r

13

Case l:18-cv-00543-JTIM-SJB ECF No. 56 filed 03/16/20 PagelD.803 Page 4 of 10

again mischaracterizes the Magistrate Judge’s statement inasmuch as the Magistrate Judge held
that the provided evidence did not support Plaintiffs allegations, not that Plaintiff failed to provide
any evidence at all. Plaintiff further objects to Defendants not providing any evidence of their own
(id.). However, defendants are not required to provide evidence but may sirnply show that a
plaintiff cannot sustain her burden of proof. For these reasons, this objection is denied.
Plaintiff also argues that the Magistrate Judge erred in finding Plaintiff failed “to
distinguish against whom each of her various claims [were] asserted” (id. at PageID.760). Plaintiff
asserts that she made the required distinction in her Rule 26 discovery documents (id.). However,
even if the Court considered the assertions within the discovery materials as part of Plaintiff's
initial Complaint, such would not change the Magistrate Judge’s recommended result. The
Magistrate Judge concluded that Defendants Linderman, Fenton, and Schuitema enjoy absolute
immunity, regardless of Plaintiffs specificity in the Complaint (R&R, ECF No. 47 at PageID.731).
This objection is therefore denied.
Next, Plaintiff disagrees with the Magistrate Judge’s finding that “[d]uring her deposition
[PJlaintiff conceded that the only basis for her claims against these [Defendants was that 'they
signed warrants'” (sic) (Obj., ECF No. 48 at PagelD.760). Plaintiff argues that the signed warrants
“were not backed up by probable cause” (id.). The Magistrate Judge addressed and rejected
Plaintiffs probable-cause argument by stating “[t]his is not an accurate statement of law” (R&R,
ECF No. 47 at PagelD.731, citing Howell v. Sanders, 668 F.3d 344, 350 (6th Cir. 2012)). The
Magistrate Judge further clarified that “‘the existence or nonexistence of probable cause, however,
is not determinative of whether absolute immunity applies’” (id.): Plaintiffs disagreement with
the Magistrate Judge’s analysis does not serve to identify any error therein. This objection is
therefore denied.

4

(4 v

\

Case 1:18-CV-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.804 Page 5 of 10

III.

False Arrest and False Imprisonment
Turning to Plaintiffs false-arrest and false-imprisonment claims. Plaintiff argues that the

7

Magistrate Judge erred in concluding that false arrest and false imprisonment are “functionally
indistinct” (Obj., ECF No. 48 at PageID.762). Plaintiff identifies the differing elements of the two
claims, but she fails to demonstrate any error in the Magistrate Judge’s conclusion that both claims
require the core element of probable cause. The objection is denied.
Plaintiff also argues that the Magistrate Judge erred in finding that Defendants Had probable
cause to arrest her (id. at PagelD.762-764). Plaintiff restates the alleged facts and her disagreement
with the Magistrate Judge’s conclusion, but she again fails to identify any alleged error to be
reviewed (id). The objection is denied.
Next, Plaintiff asserts she provided evidence that Defendants Wallin and Leist were
involved in her alleged false arrest on May 23, 2015 (id. at PageID.762). The Magistrate Judge
granted summary judgment to Defendants Wallin and Leist based on Plaintiff making “no factual
assertions” as well as the lack of evidence presented (R&R, ECF No. 47 at PageID.732).
Therefore, even assuming such evidence was provided, Plaintiff’s objection is properly denied
inasmuch as she has not addressed the other basis for the Magistrate Judge’s decision.
Plaintiff disagrees with the Magistrate Judge’s finding that
•

.. Plaintiff maliciously used

i

a communications device with the intent to threaten physical harm . .

(Obj., ECF No. 48 at

PagelD.763, quoting R&R, ECF No. 47 at PagelD.735). Plaintiff contends she did not threaten
anybne with physical harm and claims no evidence has been provided to say otherwise (id.).
However, the Magistrate Judge referenced evidence of three phone messages left by Plaintiff
(R&R, ECF No. 47 at PagelD.734-735). The objection is denied.

5

IS"*"

Case l:18-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.805 Page 6 of 10

Plaintiff also disagrees with the Magistrate Judge’s characterization of the alleged facts,
particularly that she pleaded guilty at the January 13, 2016 hearing (Obj., ECF No. 48 at
PageID.763-764). Plaintiff provides explanation for why she signed her guiltyplea, but fails to
identify any factual error by the Magistrate Judge (id). The objection is denied.
Plaintiff also argues that the Magistrate Judge erred by finding Defendants Wallin, Wheat,
Cowell, and Leist were not involved with Plaintiff s arrest (id. at PagelD.764). Plaintiff references
alleged conduct by Defendants surrounding the arrest, but fails to demonstrate how Defendants
were involved in the actual arrest and subsequent detention. The objection is denied.
Plaintiff argues that the Magistrate Judge erred in finding Plaintiffs due process claims
were not cognizable (Obj., ECF No. 48atPageID.765). Plaintiff argues that there is a “prima facie
case” that illustrates all four elements of the due process claim (id.). However, the Magistrate
Judge properly concluded, “where a particular Amendment ‘provides an explicit textual source for
constitutional protection’ against government behavior, that Amendment is the basis for assessing
such claims” (R&R, ECF No. 47 at PageID.738). Since the Fourth Amendment claim provides
the source of constitutional protection, a due process claim is not cognizable (id.). The objection
is denied.
IV.

Use of Excessive Force and Failure to Intervene
Plaintiff next addresses her claims for use of excessive force and failure to intervene.

Plaintiff argues that th^Magistrate Judge erred in finding Plaintiff “refused to exit her residence,”
Plaintiff was “actively resisting and pulling away” during her arrest, and the video evidence failed
to reveal “use of excessive force” (Obj., ECF No. 48 at PageID.765). Plaintiff disagrees with the

l

Magistrate Judge’s findings from the evidence, but Plaintiff fails to identify any factual or legal
error in the analysis (id.). For these reasons, the objection is denied.

6

J

,/ Case 1:18-CV-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.806 Page 7 of 10

£

V.

Malicious Prosecution
With regards to Plaintiffs malicious-prosecution Claim, Plaintiff disagrees with the

M

N

Magistrate Judge’s initial statement that "‘Plaintiff alleges that her decision, on January 13, 2016,
Sy ’; ") •

to plead guilty ...” (0£j., ECF No. 48 at PageID.765; R&R, ECF No. 47 at PageID.740). Plaintiff
fails to include the second half of the Magistrate Judge’s sentence which states “... was part of a
conspiracy and constitutes malicious prosecution” (R&R, ECF No. 47 at PageID.740). To find
this fact, the Magistrate Judge referenced Plaintiffs initial Complaint, which included Plaintiffs
.. ■ T

statement that on “January 13 2016 Defendants did arrest Plaintiff to further conspiracy to force
Plaintiff to plead guilty” (PI. Compl,, ECF No. 1 at PagelD.l 10). Plaintiff does not reveal any
error by the Magistrate Judge.
Plaintiff also argues that the Magistrate Judge erred in determining that“there was probable
cause to charge [PjlaintifT (Obj., ECF No. 48 at PageID.765). Plaintiffs objection merely
reiterates her argument from previous sections. This objection is also properly denied.
VI.

Deliberate Indifference
Turning to the Magistrate Judge’s analysis of her deliberate indifference claim, Plaintiff

disagrees with the Magistrate Judge’s statement that “Plaintiff concedes in her complaint that
following her arrest, Defendants Wheat and Cowell arranged for her to be examined by EMS
personnel . . .” (Obj., ECF No. 48 at PagelD.766; R&R, ECF No. 47 at PageID.743). Plaintiff
provides a description of that day’s events, which includes her admission that Defendants Wheat
and Cowell contacted EMS for Plaintiffs medical treatment (Obj., ECF No. 48 at PagelD.766).
Plaintiffs argument includes no objection to the Report and Recommendation; therefore, the
;

objection is denied.

/

7

\1

Case l:18-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.807 Page 8 of 10

Plaintiff also disagrees with the Magistrate Judge’s statement that “Plaintiff argues the care
she received at the hospital was insufficient-’ (Obj., ECF No. 48 at PageID.767; R&R. ECF No.
47 at PageID.744). Plaintiff denies bringing this claim, but Plaintiff agrees with the Magistrate
Judge that her treatment at McLaren is irrelevant to the case at hand (id.). Since this claim is moot,
the objection is denied.
Plaintiff does not otherwise identify any alleged factual or legal error in the Magistrate
Judge’s analysis of her deliberate indifference claim.
VII.

Illegal Search
Plaintiff objects to the Magistrate’s conclusion that her il legal-search claim fails “because

she has not presented evidence” (Obj., ECF No. 48 at PagelD.768). Plaintiffs objection merely
reiterates her allegations and fails to demonstrate any factual or legal error in the Magistrate
/

Judge’s analysis of this claim . The objection is denied!.
VIII. Violation of the Right of Free Speech
Regarding her free-speech claim, Plaintiff objects to the Magistrate Judge’s finding that
“[Pjlaintiffs complaint contains no allegations that [Defendants prevented Plaintiff from
speaking out” and “Plaintiff has neither presented nor identified evidence that Defendants impaired
her right to speak out” (id.). Plaintiff agrees with the Magistrate Judge that the allegation was not
included in her Complaint, and Plaintiff simply provides a reason for the omission (id.). The
remainder of the objection reiterates Plaintiffs allegations and fails to demonstrate any factual or
legal error in the Magistrate Judge’s analysis. The objection is denied.
IX.

.1:

Retaliation
Regarding the Magistrate Judge’s analysis of Plaintiffs retaliation claims, Plaintiff argues

that the Magistrate Judge erred in finding that Plaintiff failed to specify Defendants’ unlawful-

8

1$ ^

i
K

S:

Case l:18-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.808 Page 9 of 10

retaliation actions (Obj., ECF No. 48 at PageID.769). Plaintiff argues that ‘‘she did send evidence
and information specifying each actor, evidence Exhibit #11, and 3, 4” [sic] (id.). Exhibit 11 is
listed as “Arrest records, elements of claims,'’ but “Documents [were] Not Received for Exhibit
11” (PI. Ex., ECF No. 34-1 at PageID.531; PI. Ex., ECF No. 34-5 at PageID.580). Exhibits 3 and
4 are videos labeled as “Voice mails” and “Cowell voice mail” (PI. Ex., ECF No. 34-2 at
PageID.531; PI. Ex., ECF No. 34-2 at PageID.538-541). These exhibits also fail “to specify,
however, what actions any Defendant undertook which constitute unlawful retaliation” (R&R,
ECF No. 47 at PagelD.746). For these reasons, the objection is denied.
Last, Plaintiff argues that the Magistrate Judge erred in concluding that Defendants Wallin,
Wheat, Cowell, and Leist acted lawfully (Obj., ECF No. 48 at PageID.769). Plaintiff again asserts
that the lack of probable cause for her arrest denotes unlawful behavior (id.). This issue was
previously addressed. The objection is denied.
X.

Infliction of Emotional Damage
Regarding Plaintiffs claim for intentional infliction of emotional distress (IIED), Plaintiff

argues that the Magistrate Judge erred in finding Plaintiff “neither identified [n]or presented
evidence which any reasonable person could conclude satisfied this standard” (Obj., ECF No. 48
at PageID.769). In analyzing Plaintiffs IIED claim, the Magistrate Judge correctly examined
whether Plaintiff established: “(1) extreme and outrageous conduct; (2) intent or recklessness; (3)
causation; and (4) severe emotional distress” (R&R. ECF No. 47 at PageID.748, citing Ghannam
v. Weiss, 2013 WL 3025143 at *1 (Mich. Ct. App., June 18,2013) (setting forth the test)). Plaintiff
makes conclusory statements that the “[t]he entire case is Extreme and outrageous” and
Defendants’ treatment of her was not “decent” (Obj., ECF No. 48 at PageID.770). Conclusory

9

11“-

Case l:18-cv-00543-JTN-SJB ECF No. 56 filed 03/16/20 PagelD.8Q9 Page 10 of 10

statements are not sufficient to demonstrate any factual or legal error in the Magistrate Judge’s
analysis. The objection is denied.
XL

Conspiracy
Last, Plaintiff generally objects to the Magistrate Judge’s conclusion that her conspiracy

claim fails (id). Plaintiff wholly failsto identify any factual or legal error in the Magistrate Judge’s
analysis of her conspiracy claim. Therefore, the objection is denied.
Accordingly, this Court adopts the Magistrate Judge’s Report and Recommendation as the
Opinion of this Court. A Judgment will be entered consistent with this Opinion and Order. See
Fed. R. Civ. P. 58. Therefore:
IT IS HEREBY ORDERED that the Objections (ECF No. 48) are DENIED and the
Report and Recommendation, of the Magistrate Judge (ECF No. 47) is APPROVED and
ADOPTED as the Opinion of the Court.
IT IS FURTHER ORDERED that the Motion for Summary Judgment (ECF No. 30) is
GRANTED

/s/ Janet T. Neff
JANET T. NEFF
United States District Judge

Dated: March 16, 2020

10

-

1

:-r; ■

f

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

JOELLEN MARY CROSSETT,
Plaintiff,

Hon. Janet T. Neff

v.

Case No. l:18-cv-543

EMMET COUNTY, et al.
Defendants.

REPORT AND RECOMMENDATION
This matter is before the Court on Defendants’ Motion for Summary Judgment. (ECF
No. 30). Pursuant to 28 U.S.C. § 636(b)(1)(B), the undersigned recommends that Defendants’ motion
.

be granted and this matter terminated.

BACKGROUND
Plaintiff initiated the present action on May 14, 2018, against Emmet County and the
following Emmet County officials: Sheriff Peter Wallin; Deputy Cody Wheat; Deputy Fuller Cowell;
Deputy Wade Leist; Prosecutor James Lindennan; Assistant Prosecutor Stuart Fenton; and Assistant
Prosecutor Michael Schuitema. (ECF No. ,1). The details of Plaintiffs various allegations are
explored in detail herein. Nevertheless, the following allegations contained in Plaintiff s complaint
represent a broad outline of her allegations.
In March and April 2015, Plaintiff communicated with various Emmet County officials
to complain about objectionable police practices, specifically arrests and searches ofNative Americans
suspected of Marijuana-related offenses by the Straits Area Narcotics Enforcement Team (SANE).
As part of her efforts, Plaintiff “called the sheriff several times.” On May 23, 2015, Plaintiff was
1

m

e

\

-V

arrested for “swearing on die phone.” Plaintiff was subjected to excessive force during her arrest and
denied medical treatment immediately thereafter. Plaintiff was later charged with three counts of
resisting and obstructing arising from her arrest.
During the course of defending Plaintiff against these various charges, Plaintiffs
attorney indicated that Plaintiff would plead not guilty by reason of insanity. In response, the trial
court ordered Plaintiff to participate in a mental competency examination. Plaintiff, however, did not
agree with her attorney’s strategy and refused to attend the scheduled competency hearings.; As a
result, Plaintiff was later charged with contempt of court. Following a jury trial, Plaintiff was
convicted of all three counts of resisting and obstructing, but was later acquitted of “swearing on the
phone.” Plaintiff was sentenced to serve nine months in jail. During her incarceration, Plaintiffs
requests for a soy-free diet and to treat herself using oregano oil were denied.
Plaintiff asserts twenty-four (24) claims in this matter: (1) violation of the right to free
speech; (2) retaliation; (3) unlawful arrest (three counts); (4) unlawful imprisonment (4 counts); (5)
malicious prosecution (4 counts); (6) use of excessive force; (7) failure to intervene; (8) deliberate
indifference (two counts); (9) conspiracy; (10) illegal search; (11) violation of due process (four
counts); and infliction of emotional damage. Defendants now move for summary judgment.
LEGAL STANDARDS
Summary judgment “shall” be granted “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). A party moving for summary judgment can satisfy its burden by demonstrating “that
the respondent, having had sufficient opportunity for discovery, has no evidence to support an essential
element of his or her case.” Minadeo v. ICI Paints, 398 F.3d 751, 761 (6th Cir. 2005). Once the
-2-

moving party demonstrates that “there is an absence of evidence to support the nonmoving party’s
case,” the non-moving party "must identify specific facts that can be established by admissible
evidence, which demonstrate a genuine issue for trial.” Amini v. Oberlin College, 440 F.3d 350,357
(6th Cir. 2006).
While the Court must view the evidence in the light most favorable to the non-moving
party, the party opposing the summary judgment motion “must do more than simply show that there
is some metaphysical doubt ais to the material facts.” Amini, 440 F.3d at 357. The existence of a
mere “scintilla of evidence” in support of the non-moving party’s position is insufficient. Daniels v.
Woodside, 396 F.3d 730, 734-35 (6th Cir. 2005). The non-moving party "may not rest upon {his]
mere allegations,” but must instead present “significant probative evidence” establishing that “there is
a genuine fesue for trial.” Packv. Damon Corp., 434 F.3d 810, 813-14 (6th Cir. 2006).
Moreover, the non-moving party cartnot defeat a properly supported motion for
summary judgment by “simply arguing that it relies solely or in part upon credibility determinations.”
Fogerty v. MOM Group Holdings Corp., Inc., 379 F.3d 348, 353 (6th Cir. 2004). Rather, the non­
moving party “must be able to point to some facts which mayor will entitle him to judgment, or refute
the proof of the moving party in some material portion, and.. .may not merely recite the incantation,
‘Credibility,’ and have a trial on the hope that a jury may disbelieve factually uncontested proof.” Id.
at 353-54. In sum, summary judgment is appropriate "against a party who fails to make a showing
sufficient to establish the existence of an element essential to that party’s case, and on which that party
will bear the burden of proof at trial.” Daniels, 396 F.3d at 735.
While a moving party without the burden of proof need only show that the opponent
cannot sustain his burden at trial, a moving party with the burden of proof faces a “substantially higher
-3-

L

li
‘m.

■k

%

hurdle.” Arnett v. Myers, 281 F.3d 552,561 (6th Cir. 2002). Where the moving party has the burden,

%
%

his showing must be sufficient for the court to hold that no reasonable trier of fact could find other
than for the moving party.” Calderone v. United States, 799 F.2d 254, 259 (6th Cir. 1986). The
Sixth Circuit has emphasized that the party with the burden of proof "must show the record contains
evidence satisfying the burden of persuasion and that the evidence is so powerful that no reasonable
jury would be free to disbelieve it.” Arnett, 281 F.3d at 561. Thus, summary judgment in favor of
the party with the burden of persuasion "is inappropriate when the evidence is susceptible of different
interpretations or inferences by the trier of fact.” Hunt v. Cromartie, 526 U.S. 541, 553 (1999).
ANALYSIS
Defendant Emmet County

I.

Invoking 42 U.S.C. § 1983, Plaintiff seeks to hold Emmet County liable for violating

>

her rights. Specifically, Plaintiff appears to contend that the violation of her rights was caused by
Emmet County’s failure to properly train Defendants.
^

Section 1983 is the means by which “persons” who violate the constitutional rights of

others can be held accountable. See 42 U.S.C. § 1983. While “municipalities and other local
governmental bodies" are considered “persons” under § 1983, Emmet County cannot be held liable
inder § 1983 solely because it employs a tortfeasor. Board of County Commissioners of Bryiun
County, Oklahoma v. Brown, 520 U.S. 397, 403 (1997). To impose liability on Emmet County,
Plaintiff must establish that she suffered a constitutional injury as a result of “official municipal
policy.” Connick v. Thompson, 563 U S. 51, 60 (2011). Official municipal policy includes i4the
decisions of a government’s lawmakers, the acts of its policymaking officials, and practices so
persistent and widespread as to practically have the force of law.” Id. at 61.

While a local

-4-

£7^

>■

government’s decision not to train its employees regarding their legal duty to avoid violating
individual’s rights “may rise to the level of an official governmental policy for purposes of § 1983,” a
municipality’s culpability for a deprivation of rights “is at its most tenuous where a claim turns on a
failure to train.” Ibid.
To prevail on her claim, Plaintiff must demonstrate that the County’s failure to train its
employees constitutes “deliberate indifference to the rights of persons with whom the [untrained
employees] come into contact.” Ibid. Because liability, under § 1983, for failure to train constitutes
a finding that a municipality “decided to violate the Constitution,” the law imposes a “strict standard
j

of fault, requiring proof that a municipal actor disregarded a known or obvious consequence of his
action.” Brown v. Battle Creek Police Department, 844 F.3d 556, 573 (6th Cir. 2016) (citation
omitted). This standard can be satisfied in either of two ways: (1) by demonstrating there exists a
pattern of similar constitutional violations by untrained employees, or (2) by demonstrating “a single
violation of federal rights accompanied by a showing that [the municipality] has failed to train its
employees to handle recurring situations presenting an obvious potential” for constitutional violation.
Shadrick v. Hopkins County, Ky., 805 F.3d 724,739 (6th Cir. 2015) (Citation omitted).
Plaintiff has neither presented nor identified any evidence which satisfies this standard.
Accordingly, the undersigned recommends that Defendant Emmet County is entitled to summary
judgment.
II.

Defendants Linderman, Fenton, and Schuitema
In her complaint, Plaintiff fails to distinguish against whom each ofher various claims

is asserted, instead asserting in-each claim that “defendants” violated her rights. Moreover, the nature
ofher alleged claims against prosecuting attorneys Linderman, Fenton, and Schuitema is not apparent
*>

-5-

32^

from the factual allegations in her complaint. During her deposition, however, Plaintiff conceded that
the only basis for her claims against these defendants was that “they signed warrants.” (ECF No. 304 at PagelD.405).
It is well understood that “state prosecutors are absolutely immune from civil liability
when acting within the scope of their prosecutorial duties.” Howell v. Sanders, 668 F.3d 344, 349
(6th Cir. 2012) (citing Imbler v. Pachtman, 424 U.S. 409,420 (1976)). The assessment of whether a
prosecutor was acting within the scope of his duties and, therefore, entitled to immunity, turns on
whether the prosecutor’s actions were “intimately associated with the judicial phase of the criminal
process” or whether instead the prosecutor was “merely giving legal advice or investigating.”
Howell, 668 F.3d at 349-50.
While a prosecutor is not entitled to immunity if she advises the police during the
investigatory phase of the proceedings, she is entitled to immunity based on her “decision to initiate a
prosecution, including the decision to file a criminal complaint or seek an arrest warrant.” Howell,
668 F.3d at 351. Here, Plaintiffs claims against these Defendants are based on nothing more than
their alleged decisions to authorize warrants for Plaintiff s arrest. As to such claims, Defendants
enjoy absolute immunity. Plaintiff argues that Defendants are not entitled to immunity because there
did not exist probable cause to arrest her. This is not an accurate statement of the law. Id. at 350
(“the existence or nonexistence of probable cause, however, is not determinative of whether absolute
immunity applies”). As for Plaintiff s arguments that Defendants made false statements or otherwise
acted improperly as part of their decision to issue the warrants in question, Plaintiff has presented
absolutely no evidence to support such assertions. Accordingly, the undersigned recommends that
Defendants Linderman, Fenton, and Schuitema are entitled to summary judgment.
-6-

£1 SL.

III.

False Arrest and False Imprisonment
While Plaintiff asserts separate claims for false arrest and false imprisonment, such

claims are functionally indistinct, as both consider whether an individual was detained in the absence
of probable cause. See, eg., Manuelv. City ofJoliet, Illinois, 137 S.Ct. 911, 917-20 (2017) (whether
an individual is challenging his initial arrest or continued detention thereafter, the dispositive issue in
both circumstances is the presence or absence ofprobable cause); Wolgast v. Richards, 389 Fed. Appx.
494, 501 (6th Cir., Aug. 9, 2010) (with respect to “Fourth Amendment false-imprisonment and
unlawful-arrest claims[,J [fjhe presence of probable cause would defeat each of these constitutional
claims”). With respect to these various claims, Plaintiff alleges that her rights were violated on four
separate occasions, each of which is examined separately below.
A.

May 23,2015 Arrest and Subsequent Detention

Plaintiff alleges that on May 23, 2015, Defendants Cowell and Wheat arrived at her
residence and arrested her “for swearing on the phone.” (ECF No. 1 at PageID.87-92). Plaintiff
further alleges that following her arrest she was unlawfully “confined in jail for two days when they
had no probable cause to arrest her.” (ECF No. 1 at PagelD.108).
With respect to these claims, Plaintiff makes no factual assertions against Defendants
Wallin or Leist. Likewise, in response to Defendants’ motion, Plaintiff has neither presented nor
identified evidence indicating that Defendants Wallin or Leist were involved in this incident.
Accordingly, Defendants Wallin and Leist are entitled to summary judgment. See Rodriguez v. City
ofCleveland, 439 Fed. Appx. 433,457-58 (6th Cir., Aug. 26,2011) (liability in a § 1983 action “must
be based on active unconstitutional behavior and cannot be based upon a ‘mere failure to act’ or the

-7-

‘mere right to control employees’”). Defendants Cowell and Wheat are also entitled to summary
judgment, albeit for a different reason.
The Fourth Amendment prohibits unreasonable seizures. See U.S. Const. amend. IV.
An arrest is reasonable for Fourth Amendment purposes if the arresting officer had probable cause to
believe that a criminal offense has been committed. See Graves v. Mahoning County, 821 F.3d 772,
776 (6th Cir. 2016). To prevail on her unlawful arrest claim, therefore, Plaintiff must establish that
Defendants Cowell and Wheat lacked probable cause to arrest her. Ibid, see also, Robertson v.
Lucas, 753 F.3d606,618 (6th Cir. 2014). An arrest accomplished pursuant to a facially valid warrant
defeats an unlawful arrest claim unless the officer knew that the arrest warrant was issued without
\
l

,

probable cause. Robertson, 753 F.3d at 618.

Plaintiff was arrested pursuant to an arrest warrant which was issued by a magistrate
judge on May 19, 2015. (ECF No. 30-5 at PageID.432). The warrant to arrest Plaintiff was issued
pursuant to a misdemeanor complaint charging Plaintiff with malicious use of telecommunications
services in violation of Michigan Compiled Laws § 750.540e. (ECF No. 30-5 at PageID.431).
Plaintiff does not allege that the arrest warrant was facially invalid, but instead argues that there did
not exist probable cause to arrest her. This argument fails for two reasons. First, there did exist
probable cause to arrest Plaintiff and, second, even if the Court assumes that probable cause was
lacking, Plaintiffhas presented no evidence that Defendants Cowell or Wheat knew such was the case.
Under Michigan law, it is a crime to maliciously use any service provided by a
telecommunications provider with the intent to intimidate, threaten, or harass another person by
“threatening physical harm or damage to any person.” See Mich. Comp. Laws § 750.540e(l)(a).
When assessing whether this provision has been violated, “the focus is on die [speaker]” not “the
-8-

listener’s subjective perceptions.” People v. Taravella, 350 N.W.2d 780,784 (Mich. Ct. App. 1984).
Accordingly, it is “the malicious intent with which the transmission is made that establishes the
criminality of the conduct.” Ibid.
Probable cause “is established by a reasonable ground of suspicion, supported by
circumstances sufficiently strong in themselves to warrant a cautious person in the belief that the
accused is guilty of the offense charged.” Peterson Novelties, Inc. v. City of Berkley, 672 N.W.2d
351, 362 (Mich Ct. App. 2003). Probable cause “is a commonsense concept dealing with practical
considerations of everyday life that must be viewed from the perspective of reasonable and prudent
persons, not legal technicians.” Id. at 362-63. The probable cause standard articulated under federal
law is, practically speaking, indistinct. See, e.g., Rodriguez v. City ofCleveland, 439 Fed. Appx. 433,
452 (6th Cir., Aug. 26, 2011) (probable cause “means facts and circumstances withing the officer’s
knowledge that are sufficient to warrant a prudent person, or one of reasonable caution, in believing,
in the circumstances shown, that the suspect has committed, is committing, or is about to commit an
offense”).
Plaintiff was charged with violating Michigan law based on a series of telephone
messages Plaintiff left for Defendant Wallin. Defendants have submitted the recordings of these
communications. A review of such makes clear that probable cause existed to charge Plaintiff with
malicious use of telecommunication services. On April 9, 2015, Plaintiff left a voicemail message
for Defendant Wallin in which she stated, in relevant part, the following:
Pete Wallin, what in the fuck are you doing? Why are you letting
SANE arrest Native American women on the reservation when they’re
using a legal medicine.. .1 warned you and I warned you.
(ECF No. 30, Exhibit C).
-9-

. 3* «-

Later that day, Plaintiff left another voicemail message for Defendant Wallin regarding
the alleged arrest of a Native American woman. In this message, Plaintiff stated, in relevant part, the
following:
Why is SANE still in the county harassing Indians?.. .Shame on you for
not serving and protecting Indians on our own reservation.. .1 want to
know why you’re letting that happen. Your job is to serve and protect
me.
(ECF No. 30, Exhibit C).
On May 1, 2015, Plaintiff again left a voicemail message for Defendant Wallin
regarding the arrest of two of Plaintiff s neighbors. In this message, Plaintiff stated, in relevant part,
the following:
If you guys come to my house, be prepared. Do you understand me?
I will do what it takes to preserve my property. If your fucking SANE
officers come to my house, they can be in peril. Do you understand
me?.. .If your cock-sucking police fucks come to my house, they better
be prepared. . .If you come to my house you will be in fucking peril.
Understand me you cocksucker.
(ECF No. 30, Exhibit C).
While certain aspects of Plaintiff s voicemail messages concern legitimate matters of
public concern, a reasonable and prudent person could nevertheless readily conclude that Plaintiff
maliciously used a communication device with the intent to threaten physical harm or damage to
others.

Simply put, there existed probable cause to charge Plaintiff with malicious us? of a

telecommunications service and, therefore, probable cause to arrest Plaintiff on May 23, 2015.
Likewise, Plaintiffs subsequent two day detention did not violate the Fourth Amendment.
Accordingly, the undersigned recommends that Defendants Cowell and Wheat are entitled to summary
judgment as to Plaintiff s false arrest and false imprisonment claims.

-10-

V.-' •

33^

./

B.

January 13, 2016

With respect to this event, Plaintiff alleges the following. On January 13, 2016,
Plaintiff arrived at the Emmet County Courthouse to meet with her attorney prior to a scheduled court
proceeding. (ECF No. 1 at PageID.96-97). Prior to the start of the proceeding in question, Plaintiff
signed an unidentified document provided to her by her attorney. (ECF No. 1 at PageID.96-97).
Plaintiff then appeared before a district judge who informed Plaintiff that because she had agreed to
plead guilty she was under arrest. (ECF No. 1 at PageID.97). The judge then instructed the bailiff
to take Plaintiff into custody. (ECF No. 1 at PagelD.97). Plaintiff alleges that following her
unlawful arrest, she was unlawfully “confined at jail for several hours.” (ECF No. 1 at PageID.109).
While not entirely clear, it appears that this encounter concerned additional charges for malicious use
of a telecommunications service brought against Plaintiff on January 13, 2016, based upon various

V,"

communications Plaintiff made to tribal officials. (ECF No. 30-10 at PagelD.443-50; ECF No. 30/

11 at PageID.451).

Plaintiff does not allege that this arrest was conducted by Defendants Wallin, Wheat,
Cowell, or Leist or that Defendants in any way participated in such. Likewise, Plaintiff does not
allege that Defendants were in any way involved in her subsequent detention. In response to the
present motion, Plaintiff has neither presented nor identified any evidence that Defendants were
responsible for or participated in her January 13, 2016 arrest and brief detention. Accordingly, the
undersigned recommends that Defendants Wallin, Wheat, Cowell, and Leist are entitled to summary
judgment as to these claims.

-11-

C.

April 28, 2016

Plaintiffalleges that on April 28,2016, she was unlawfully arrested by two unidentified
police officers and subsequently detained for 30 days. (ECF No. 1 at PageID.99, 108). According
to Plaintiff, she was arrested for contempt of court for failing to appear at a court-ordered competency
examination. (ECF No. 1 at PagelD.99). Plaintiff does not allege that this arrest was conducted by
$

Defendants Wallin, Wheat, Cowell, or Leist or that Defendants in any way participated in such.
Defendants have submitted evidence that this arrest was conducted by non-party K.R. Hansz. (ECF
No. 30-12 at PageID.456). Likewise, Plaintiff does not allege that Defendants Wallin, Wheat,
Cowell, or Leist had any involvement in her subsequent detention. In response to the present motion,
Plaintiff has neither presented nor identified any evidence that Defendants were responsible for or
participated in her April 28, 2016 arrest or had any involvement in her subsequent detention.
Accordingly, the undersigned recommends that Defendants Wallin, Wheat, Cowell, and Leist are
entitled to summary judgment as to these claims.
D.

Incarceration for Six Months and Two Weeks

After being convicted of three counts of resisting, obstructing, and/or assaulting a
police officer during the course of her May 23, 2015 arrest, Plaintiff was sentenced to serve nine
months in jail. (ECF No. 30-9 at PageID.441). Plaintiff alleges that based on her “good behavior,”
she was released after serving six months and two weeks of her nine month sentence. (ECF No. 1 at
PageID.101-02,109). Plaintiff claims that the time she served in jail for these convictions constitutes
unlawful imprisonment.

-12-

3

As discussed in the following section, Plaintiff was charged with three counts of
resisting^ obstructing, and/or assaulting a police officer based on her behavior during her May 23,2015
arrest A review of the video evidence recorded by the officers’ body cameras reveals that there
existed probable cause to charge Plaintiff with resisting, obstructing, and/or assaulting a police officer.
See Mich. Comp. Laws § 750.81d. Moreover, Plaintiff has not demonstrated that her conviction for
these offenses was unlawful. Accordingly, the undersigned recommends that Defendants Wallin,
Wheat, Cowell, and Leist are entitled to summary judgment as to this claim.
Finally, Plaintiff asserts that the conduct which forms the basis of her false arrest and
false imprisonment claims violates her Fourteenth Amendment right to due process. (ECF No. 1 at
PagelD. 113-15). As discussed herein, the Fourth Amendment adequately protects against the alleged
harms Plaintiff suffered. Accordingly, Plaintiffs Due Process claims are not cognizable. See
Albright v. Oliver, 510 U.S. 266, 273 (1994) (where a particular Amendment “provides art explicit
textual source of constitutional protection” against government behavior, that Amendment is the basis
for assessing such claims). Accordingly, the undersigned recommends that Defendants Wallin,
'

Wheat, Cowell, and Leist are entitled to summary judgment as to Plaintiffs Due Process claims.
IV.

Use of Excessive Force and Failure to Intervene
Plaintiff alleges that Defendant Wheat employed excessive force when effecting her^

arrest on May 23,2015. Plaintiff further alleges that Defendant Cowell violated her rights by failing
to intervene to prevent Defendant Wheat from subjecting her to excessive force.
Claims that a police officer employed excessive force during the course of an arrest are
analyzed under the Fourth Amendment’s reasonableness standard. See Schreiber v Moe, 596 F.3d
323, 331-32 (6th Cir. 2010). In determining whether an officer’s use of force was reasonable, the
-13-

Court “must balance the nature and quality of the intrusion on the individual’s Fourth Amendment
interests against the countervailing governmental interests at stake.” Id. at 322. This assessment
must be judged “from the perspective of a reasonable officer on the scene, rather than with the 20/20
vision of hindsight.” Moreover, the Court must “pay particular attention” to whether the suspect
poses a threat to the officers and whether she is actively resisting arrest. Ibid.
In support of his motion for summary judgment, Defendant Wheat has submitted video
evidence recorded by his and Defendant Cowell’s body cameras. (ECF No. 30-6, Exhibit F). A
review of this evidence reveals the following. Defendants Wheat and Cowell were both wearing
clearly identifiable police uniforms, both Defendants identified themselves, and Plaintiff was clearly
informed that Defendants had a warrant for her arrest. Plaintiff initially refused to exit her residence
and only exited when Defendant Cowell began speaking with Plaintiffs stepson. At this point,
Plaintiff approached Defendant Cowell screaming, “leave my son alone you motherfuckers.”
Defendant Wheat then approached the group and instructed Plaintiff to place her hands
on her head. Plaintiff did so, but when Defendant Cowell approached Plaintiff to handcuff her,
Plaintiff began actively resisting and pulling away. Plaintiff then fell to the ground of her own accord
at which point she was handcuffed. Defendant Wheat then began walking Plaintiff to his patrol
vehicle at which point Plaintiff again began actively resisting and pulling away. Plaintiff then spat at
Defendant Wheat, telling him to “go ahead and add that you cocksucker.” Defendant Wheat regained
control of Plaintiff, who immediately began resisting and pulling away, and escorted her to his police
vehicle at which point he placed a spit mask over Plaintiffs face. Plaintiff was then placed into the
patrol vehicle.

-14-

31

The video evidence reveals that Plaintiff s use of excessive force Claim is without merit.
Plaintiff has neither presented nor identified any evidence suggesting otherwise. Accordingly, the
undersigned recommends that Defendant Wheat is entitled to summary judgment as to Plaintiff s use
of excessive force, claim. Because Plaintiff cannot prevail on her use of excessive force claim, her
claim that Defendant Cowell failed to prevent such likewise fails. See Burgess v. Fischer, 735 F.3d
462, 475 (6th Cir. 2013). Accordingly, the undersigned recommends that Defendant Cowell is
entitled to summary judgment as to Plaintiffs failure to intervene claim.
V.

Malicious Prosecution
Plaintiff asserts four separate claims of malicious prosecution. First, Plaintiff aisserts

that she was maliciously prosecuted for the crime of malicious use of a telecommunications service,
based upon her voicemail messages to Sheriff Wallin. (ECF No. 1 at PageID.110). Plaintiff next
alleges that she was maliciously prosecuted for obstructing, resisting, and/or assaulting a police officer
during her May 23, 2015 arrest. (ECF No. 1 at PagelD. 110). Plaintiff alleges that her decision, on
January 13, 2016, to plead guilty (presumably to additional charges of malicious use of a
telecommunications service) was part of a conspiracy and constitutes malicious prosecution. (ECF
No. 1 at PagelD. 110-11).

The Court interprets Plaintiffs assertions as a claim that she was

maliciously prosecuted for alleging using a telecommunications service to make threatening
statements to tribal officials. Finally, Plaintiff alleges that she was maliciously prosecuted for
contempt of court after failing to appear at a court-ordered competency examination.
To establish malicious prosecution, Plaintiff must establish the following elements: (1)
a criminal prosecution was initiated against Plaintiff and Defendants made, influenced, or participated
in the decision to prosecute; (2) there was no probable cause for the criminal prosecution; (3) as a
-15-

3$ ^

consequence of the legal proceeding, Plaintiff suffered a deprivation of liberty apart from the initial
seizure; and (4) the criminal proceeding was resolved in Plaintiffs favor. See Johnson v. Moseley,
790 F.3d 649,654 (6th Cir. 2015). Moreover, Plaintiff must demonstrate that Defendants acted with
“some kind of blameworthiness, something beyond mere negligence or innocent mistake.” Id. at 655
(“even false testimony is not actionable as malicious prosecution unless deliberate - i.e., given with
knowledge of, or reckless disregard for, its falsity”).
With respect to the charges for malicious use of a telecommunications service, based
upon her voicemail messages to Sheriff Wallin, as already discussed, there existed probable cause to
charge Plaintiff. While Plaintiff correctly notes that she was acquitted of those charges, such does
not equate with a finding that there did not exist probable cause to initiate the prosecution. See, e.g.,
Newman v. Township ofHamburg, 773 F.3d 769, 773 (6th Cir. 2014).
As for Plaintiffs claim that she was maliciously prosecuted for obstructing, resisting,
and/or assaulting a police officer during her May 23, 2015 arrest, her conviction of these offenses
defeats her malicious prosecution claim.

With respect to the charges for malicious use of a

telecommunications service, based upon her communications to tribal officials, as well as her charge
of contempt of court, Plaintiff has neither presented nor identified any evidence that Defendants
m
Defendants Wallin, Wheat, Cowell, or Leist made, influenced, or participated in the decision to
prosecute. Accordingly, the undersigned recommends that Defendants Wallin, Wheat, Cowell, and
Leist are entitled to summary judgment as to these claims.
VI.

Deliberate Indifference
Plaintiff asserts two claims of deliberate indifference to her serious medical Ttqeds.

First, Plaintiff alleges that following her May 23, 2015 arrest, Defendants Wheat and Cowell

*s'

-16-

3%°-

disregarded her medical needs. Plaintiff also alleges that while serving her sentence for obstructing,
resisting, and/or assaulting a police officer, she was “forbidden to use her medicine from [her]
traditional healer.”

While Plaintiffs claims concern both pre-conviction and post-conviction

conduct, the standard applicable to both is the familiar standard applicable to Eighth Amendment
deliberate indifference claims. See Brown v. Chapman, 814 F.3d 447,465 (6th Cir. 2016).
The Eighth Amendment’s prohibition against cruel and unusual punishment applies not
only to punishment imposed by the state, but also to deprivations which occur during imprisonment
and are not part of the sentence imposed. See Farmer v. Brennan, 511 U.S. 825, 834 (1994); Estelle
v. Gamble, 429 U.S. 97, 101-02 (1976). Accordingly, the Eighth Amendment protects against the
unnecessary and wanton infliction of pain, the existence of which is evidenced by the “deliberate
indifference” to an inmate’s “serious medical needs.” Estelle, 429 U.S. at 104-06; Napier v. Madison
County, Kentucky, 238 F.3d 739, 742 (6th Cir. 2001).
The analysis by which a defendant’s conduct is evaluated consists of two-steps. First,
the Court must determine, objectively, whether the alleged deprivation was sufficiently serious. A
“serious medical need,” sufficient to implicate the Eighth Amendment, is “one that has been diagnosed
by a physician as mandating treatment or one that is so obvious that even a lay person would easily
recognize the necessity for a doctor’s attention.” Harrison v. Ash, 539 F.3d 510, 518 (6th Cir, 2008).
Thus, the objective component is satisfied where a prisoner receives no treatment for a serious medical
need. See Rhinehart v. Scutt, 894 F.3d 721, 737 (6th Cir. 2018). However, if the prisoner “has
received on-going treatment for his condition and claims that this treatment was inadequate,” he must
demonstrate that his care was “so grossly incompetent, inadequate, or excessive as to shock the
conscience or to be intolerable to fundamental fairness.” Ibid.
-17-

If the prisoner satisfies the objective component, he must then demonstrate that the
defendant possessed a sufficiently culpable state of mind:
a prison official cannot be found liable under the Eighth Amendment
for denying an inmate humane conditions of confinement unless the
official knows of and disregards an excessive risk to inmate health or
safety; the official must both be aware of the facts from which the
inference could be drawn that a substantial risk of serious harm exists,
and he must also draw the inference.
Id. at 837.
In other words, the plaintiff “must present evidence from which a trier of fact could
conclude ‘that the official was subjectively aware of the risk’ and ‘disregard[ed] that risk by failing to
take reasonable measures to abate it.” Greene v. Bowles, 361 F.3d 290, 294 (6th Cir. 2004) (citing
Farmer, 511 U.S. at 829,847). To satisfy this part of the analysis, the prisoner must demonstrate that
the defendant acted with “deliberateness tantamount to intent to punish.” Miller v. Calhoun County,
408 F.3d 803, 813 (6th Cir. 2005).
To the extent, however, that a prisoner simply disagrees with the treatment he received,
or asserts that he received negligent care, summary judgment is appropriate. See Williams v. Mehra,
186 F.3d 685, 691 (6th Gir. 1999) (citing Estelle, 429 U.S. at 105-06) (“[mjedical malpractice does
not become a constitutional violation merely because the victim is a prisoner”); Brown v. Kashyap,
2000 WL 1679462 at *1 (6th Cir., Nov. 1, 2000) (citing Estelle, 429 U.S. at 106) (“allegations of
medical malpractice or negligent diagnosis and treatment” do not implicate the Eighth Amendment);
Mingus v. Butler, 591 F.3d 474, 480 (6th Cir. 2010) (to prevail on an Eighth Amendment denial of
medical treatment claim, ‘the inmate must show more than negligence or the misdiagnosis of an
ailment”); Robbins v. Black, 351 Fed. Appx. 58, 62 (6th Cir., Nov. 3, 2009) (“mere negligence or
malpractice is insufficient to establish an Eighth Amendment violation”).
-18-

i

Hi

A. *-'■ : May 23,2015

.

Plaintiff concedes in her complaint that following her arrest, Defendants Wheat and
Cowell arranged for her to be examined by EMS personnel after which she was transported to a local
hospital for further evaluation. (ECF No. 1 at PageID.92-94). Defendants have submitted copies of
the Report completed following Plaintiff’s evaluation by emergency personnel. (ECF No. 30-8 at
PageID.438-39). The results of this examination were unremarkable and the examining doctor
concluded that Plaintiff “can be discharged to jail.” (ECF No. 30-8 at PagelD.439).
Plaintiff argues that the care she received at the hospital was insufficient. This
argument fails for two reasons. First, Plaintiff has neither presented nor identified any evidence to
support this allegation. More significantly, even if the Court assumes that hospital personnel violated
Plaintiff’s Eighth Amendment rights, such simply fails to implicate Defendants Wheat or Cowell as
they did not treat Plaintiff.

Likewise, Plaintiff has neither presented nor identified evidence

implicating Defendants Wheat or Cowell in the alleged treatment deficiencies she experienced.
Accordingly, the undersigned recommends that Defendants Wheat and Cowell are entitled to summary
judgment as to this claim.
B.

Emmet County Jail

Plaintiff asserts that during her incarceration in the Emmet County Jail, she was not
permitted to use oregano oil to treat her heart condition and post-traumatic stress syndrome. (ECF
No. 1 at PageID.102). Specifically, Plaintiff alleges that she requested to use her oregano oil, but
“jail personnel” denied her requests. Plaintiff’s claim fails for two reasons.
First, Plaintiff’s medical treatment records indicate that Plaintiffs request was denied
because the oil Plaintiff requested to use was “brought in from outside” the jail and jail personnel
-19-

r\v /

43^

$

could not verify that the substance was, in fact, oregano oil. (EGF No. 30-14 at PageID.460). Thus,
Plaintiff s claim is not that she was denied medical treatment, but rather that jail personnel refused
Plaintiff s request to “treat” herself with a product which jail personnel could not identify. Such does
not violate the Eighth Amendment. Plaintiffs claim fails, however, for a more fundamental reason.
Plaintiff has neither presented nor identified evidence that the decision to deny her request to use
oregano oil was made by Defendants Wallin, Wheat, Cowell, or Leist. Accordingly, the undersigned
recommends that Defendants Wallin, Wheat, Cowell, and Leist are entitled to summary judgment as
to this claim.
VII.

Illegal Search
Plaintiff alleges that on a single occasion during her incarceration in the Emmet County

Jai} she was subjected to a strip search in violation of her Fourth Amendment rights. (ECF No. 1 at
PageID.113). Assessing the constitutionality of a search conducted in a jail setting requires a
balancing of three factors: (l)the scope, manner, and location of the search; (2) the need for the search;
and (3) whether the search was reasonably related to legitimate penological interests by weighing the
need against the invasion. See Sumpter v. Wayne County, 868 F.3d 473,482 (6th Cir. 2017).
First, Plaintiffs claim fails because she has neither presented nor identified evidence
that Defendants Wallin, Wheat, Cowell, or Leist ordered or participated in the search in question.
Furthermore, even if the Court overlooks this deficiency, the result is the same. In her deposition,
Plaintiff described the circumstances surrounding the search in question. Plaintiff testified that on
the date in question she was sitting with another inmate, Donna Idalski, who had in her possession
illegal drugs which she smuggled into the jail following a weekend furlough. (ECF No. 30-4 at
PagelD.404-05). Once jail personnel realized that Idalski was in possession of illegal drugs, Plaintiff
-20-

was subjected to a strip search to make sure she did not also possess illegal drugs. (ECF No. 30-4 at
PageID.404-05)
While the Court recognizes that a strip search is invasive, Plaintiffhas neither presented
nor identified evidence that the search in question was unduly intrusive in terms of its scope, manner,
Or location; The need for the search is apparent as jail officials have a legitimate interest in preventing
inmates from possessing illegal drugs. Finally, the search was reasonably related to this legitimate
interest. In sum, this search did not violate Plaintiffs Fourth Amendment rights. See, e.g., Florence
v. Board ofChosen Freeholders ofCounty ofBurlington, 566 U.S. 318,330-40 (2012). Accordingly,
the undersigned recommends that Defendants Wallin, Wheat, Cowell, and Leist are entitled to
summary judgment as to this claim.
VIII.

Violation of the Right to Free Speech
Plaintiff alleges that Defendants “prevented [her] from speaking out on matters of

public concern.” It is not disputed that Plaintiff enjoys the right, protected by the First Amendment,
to speak out on matters of public concern. See, e.g., Snyder v. Phelps, 562 U.S. 443, 451-52 (2011).
#

Plaintiff s complaint contains no allegations that Defendants prevented Plaintiff from speaking out on
matters of public concern. More importantly, Plaintiff has neither presented nor identified evidence
that Defendants impaired her right to speak out on matters of public concern. Accordingly, the
undersigned recommends that Defendants Wallin, Wheat, Cowell, and Leist are entitled to summary
judgment as to this claim.
IX.

Retaliation
Plaintiff alleges that Defendants “retaliated on Plaintiff for speaking Out and criticizing

[Defendants’] policies and practices.” (ECF No. 1 at PagelD.107).
-21-

Plaintiff fails to specify,

however, what actions any Defendant undertook which constitute unlawful retaliation. Instead,
Plaintiff seems to allege that every allegedly improper action by each and every Defendant was
undertaken for unlawful retaliatory reasons.
To prevail on her retaliation claims, Plaintiff must satisfy three elements: (1) she was
engaged in constitutionally protected conduct; (2) a defendant took adverse action against her which
would deter a person of ordinary firmness from continuing to engage in protected conduct; and (3) the
adverse action was motivated by Plaintiffs protected conduct. See Holzemer v. City ofMemphis, 621
F.3d 512, 520 (6th Cir. 2010). Even if the Court assumes that Plaintiff can satisfy the first two
elements, her retaliation claims fail because she cannot establish the requisite causal connection.
As the Supreme Court recently held, when alleging retaliation “it is not enough to show
that an official acted with a retaliatory motive and that the plaintiff was injured - the motive: must
cause the injury. Specifically, it must be a “but-for” cause, meaning that the adverse action against
the plaintiff would not have been taken absent the retaliatory motive.” Nieves v. Bartlett, 139 S.Ct.
1715,1722 (2019). As discussed herein, all of the actions by Defendants Wallin, Wheat, Cowell, and
Leist were either lawful or simply resulted in no cognizable injury to Plaintiff. Accordingly, the
undersigned recommends that Defendants Wallin, Wheat, Cowell, and Leist are entitled to summary
judgment as to this claim.
X.

Infliction of Emotional Damage
Plaintiff alleges that her “physical and psychological injuries. . .were caused by

intentional, reckless, acts of the defendants [who] acted with maliciousness and intent to do harm to
plaintiff causing anguish.” There does not exist under federal law a cause of action for infliction of
emotional distress. See, e.g., McMamway v. KBR, Inc., 2015 WL 13310061 at *7 (S.D. Tex., Aug.
-22-

9,2015); Laningv. Doyle, 2015 WL 710427 at *17 (S.D. Ohio, Feb. 18,2015). The Court, therefore,
interprets Plaintiff’s allegations as asserting a claim for intentional infliction of emotional distress
(IIED) under Michigan law.
W'-

...

To prevail on this claim, Plaintiff must establish: (1) extreme and outrageous conduct;
(2) intent or recklessness; (3) causation; and (4) severe emotional distress. See Ghannam v. Weiss,
2013 WL 3025143 at *1 (Mich. Ct. App., June 18,2013). In the context of an IIED claim, “extreme
and Outrageous conduct” has been defined as conduct “so outrageous in character, and so extreme in
degree, as to go beyond all possible bounds of decency, and to be regarded as atrocious, and utterly
intolerable in a civilized community.” Yost v. Paychex, Inc., 1998 WL 1989811 at'*16 (Mich. Ct.
App., Sept. 29, 1998) (quoting Restatement Torts, 2d. § 46); see also, Garretson v. City ofMadison
Heights, 407 F.3d 789; 799 (6th Cir. 2005) (citing Michigan law).
Plaintiff has neither presented nor identified any evidence which any reasonable person
could Conclude satisfied this standard. As detailed herein, Plaintiff has failed to present or identify
evidence that any Defendant violated her rights let alone engaged in conduct which is “utterly
intolerable in a civilized community.” Accordingly, the undersigned recommends that Defendants
Wallin, Wheat, Cowell, and Leist are entitled to summary judgment as to this claim.
XI.

;

Conspiracy
Finally; Plaintiff alleges that Defendants conspired to violate her rights in numerous

ways. (ECF No. 1 at PageID.113). Plaintiff has failed to indicate whether this particular claim is
grounded in federal or state law. This is of no consequence, however, as Plaintiffs claim fails under
either body of authority; Under federal law, it is improper for “two or more persons” to conspire “for
the purpose of depriving, either directly or indirectly,” an individual of his civil rights. 42 U.S.C. §
-23-

1985. Plaintiff’s claim must fail, however, because as previously noted Plaintiff cannot establish that
the alleged conspiracy deprived her of any right or privilege protected by the laws or Constitution of
the United States. See Sawyer v. Lexington-Fayette Urban County Government, 2001 WL 1006237
at *2 (6th Cir., Aug. 21,2001) (citing Collyerv. Darling, 98 F.3d211,233 (6th Cir. 1996)). Plaintiffs
conspiracy claim also fails under Michigan law. See Karkouidi’s, Inc. v. Walgreen Co., 2004 WL
435384 at *10-11 (Mich, Ct. App., Mar. 9, 2004) (“a claim for civil conspiracy may not exist in the
air; rather, it is necessary to prove a separate, actionable tort”). Accordingly, the undersigned
recommends that Defendants Wallin, Wheat, Cowell, and Leist are entitled to summary judgment as
to this claim.
CONCLUSION
For the reasons articulated herein, the undersigned recommends that Defendants’
Motion for Summary Judgment, (ECF No. 30), be granted and this matter terminated. The
undersigned further recommends that appeal of this matter would not be taken in good faith. See
McGore v. Wrigglesworth, 114 F.3d 601, 611 (6th Cir. 1997); 28 U.S.C. § 1915(a)(3).

h-U

OBJECTIONS to this Report and Recommendation must be filed with the Clerk of
Court within fourteen (14) days of the date of service of this notice. 28 U.S.C. § 636(b)(1)(C).
Failure to file objections within the specified time waives the right to appeal the District Court’s order.
See Thomas v. Am, 474 U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).
Respectfully submitted,

Dated: August 12,2019

< /s/ Ellen S. Carmodv
ELLEN S. CARMODY
U.S. Magistrate Judge
-24-

41^

(1 of 5

=v

No. 20-1268
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

Jan 16, 2021
DEBORAH S. HUNT, Clerk

JOELLEN MARY CROSSETT,

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellant,

v.
EMMET COUNTY, Ml, ET AL.
Defendants-Appeiiees.

O RD E R

BEFORE: GUY, KETHLEDGE, and NALBANDIAN, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore,'the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

m c.

..*
i

Case l:18-cv-00543-JTN-SJB ECF No. 65, PagelD.858 Filed 03/08/21 Page 25 of 31
25
t-.

1

cases, or that you do it sooner rather than later.

2

sure you gain anything by doing VFM that late in the case.

3
4

Your Honor, is the Court's preference to

have it done before close of discovery or —•

5

THE COURT:

Yes.

6

MR. KAZIM:

Okay.

7

That's typically how — okay.

I

don't have any objection to that, Your Honor.

8

THE COURT:

9

THE PLAINTIFF:

10

THE COURT:

Do you have any objection, Ms. Crossett?
No, Your Honor.

Okay.

And I just think that if you're

11

going to expend the time and energy to do that, it's just more

12

valuable early on than — I'm going to do that settlement

13

conference with you anyway.

14

MR. KAZIM:

Right.

15

THE COURT:

So hopefully your summary judgment

16

motions will be decided and I'll do a settlement conference

17

with you at that time.

18
19

M? v

MR. KAZIM:

i.

I'm not

All right.

Anything further from your point of view,

Ms. Crossett, that we should take up at this time? .

20

THE PLAINTIFF:

21

THE COURT:

22

THE PLAINTIFF:

Your Honor, I'm a Native American, —

Yes.
— and there's three things.

23

Native American.

24

Petoskey, sets on Indian land.

25

THE COURT:

I'm on Indian land.

Um-hmm.

This county seat,

I'm a

..-.v

Case l:18-cv-00543-JTN-SJB ECF No. 65, PagelD.859 Filed 03/08/21 Page 26 of 31
26

1

THE PLAINTIFF:

If we dispose the case through

2

resolutions, settlements or any of that, I would ask that those

3

issues, being an Indian on Indian land, could be separated out,

4

not settled.

5
6

THE COURT:

I don't know what the relevance of that

is to this particular case.

I mean I'm sure it's relevant to

7 J you in terms of your life, but I'm not sure what the relevance
8
9

is to this particular case.
•

THE PLAINTIFF:

The only relevance that I see, Your

10

Honor, is there is another case here in this court.

11

Little Traverse Bay Bands, is suing the State of Michigan, and

12

Emmet County came on the side of the state, Petoskey came on

13

the side of the state, Charlevoix County came on the side of

14

the state, the City of Charlevoix.

15

know, I don't — I'm not an attorney and I apologize for that.

16

I did my best to try to prepare today.

17

jeopardize their —

18

THE COURT:

I understand.

The tribe,

I don't want to — you

I don't want to

What I would suggest to

19

you is that when you have your voluntary facilitated mediation

20

you discuss that issue with your mediator.

21

THE PLAINTIFF:

22

THE COURT:

Okay.

And if it doesn't get resolved and you

23

would like to discuss it with me, I will take it up.

24

sure that I think it has relevance to your particular case, -

I'm not

Q 3.*.

Additional material
from this filing is
available in the
Clerk's Office.

